<html>
<title> - IRAN'S ENDURING BALLISTIC MISSILE THREAT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                IRAN'S ENDURING BALLISTIC MISSILE THREAT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 10, 2015

                               __________

                           Serial No. 114-41

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
   
                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-941 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                                         
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Lieutenant General Michael T. Flynn, USA, Retired (former 
  Director, Defense Intelligence Agency).........................    10
The Honorable Robert Joseph, Ph.D., senior scholar, National 
  Institute for Public Policy (former Under Secretary of State 
  for Arms Control and International Security)...................    27
David A. Cooper, Ph.D., James V. Forrestal professor and chair of 
  the Department of National Security Affairs, U.S. Naval War 
  College........................................................    37
Anthony H. Cordesman, Ph.D., Arleigh A. Burke chair in strategy, 
  Center for Strategic and International Studies.................    45

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Lieutenant General Michael T. Flynn, USA, Retired: Prepared 
  statement......................................................    14
The Honorable Robert Joseph, Ph.D.: Prepared statement...........    29
David A. Cooper, Ph.D.: Prepared statement.......................    39
Anthony H. Cordesman, Ph.D.: Prepared statement..................    48

                                APPENDIX

Hearing notice...................................................   120
Hearing minutes..................................................   121

 
                IRAN'S ENDURING BALLISTIC MISSILE THREAT

                              ----------                              


                        WEDNESDAY, JUNE 10, 2015

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself and Ranking Member Deutch for 5 
minutes each for our opening statements, I will then recognize 
Chairman Royce for as much time as he may consume. I will then 
recognize other members seeking recognition for 1 minute.
    We are also pleased that during this hearing we will be 
joined by Chairman Rogers of the House Armed Services 
Subcommittee on Strategic Forces and other members of that 
subcommittee who may join us as well.
    They have jurisdictional concerns related to the matter 
before us today and, without objection, I will also be prepared 
to recognize any member of that subcommittee seeking 
recognition if and when they are present.
    We will then hear from our witnesses and without objection 
the witnesses' prepared statements will be made a part of the 
record and members may have 5 days in which to insert 
statements and questions for the record subject to the length 
limitation of the rules.
    The Chair now recognizes herself for 5 minutes. We are less 
than 3 weeks away from the supposed June 30th nuclear deal 
deadline.
    This dangerous deal will open the pathway for Iran to 
become a nuclear threshold state, will legitimize this pariah 
nation on the international scene and will help fund the 
regime's other illicit behavior.
    And despite the ongoing nuclear negotiations and our 
repeated efforts to call attention to the shortcomings of the 
framework agreement, Iran continues to spread its terror across 
the globe, stoke sectarian tensions across the Middle East, 
destabilize the region and expand its hegemonic ambitions now 
controlling the Arab capitals of Baghdad, Damascus, Beirut and 
Sana'a, and oppress and persecute religious minorities.
    Iran continues to be one of the world's worst human rights 
violators. Iran continues to violate international sanctions 
and even reportedly violate the terms of the Joint Plan of 
Action and now the Joint Comprehensive Plan of Action, or 
Framework Agreement, and Iran's regime continues to make 
advances on its ballistic missiles program.
    There are many glaring omissions from the Obama 
administration and the P5+1 nuclear negotiations with Iran that 
have caused many to rightly worry and call this possible deal 
weak and dangerous.
    But perhaps the biggest failure of these negotiations was 
to limit them to just the nuclear profile and omit all of the 
other illicit activities, most notably the continued progress 
on the ballistic missile program.
    Just last week, the Pentagon reported that Iran continues 
to make technological advances on its missile program despite 
the ongoing negotiations and despite the sanctions, both 
multilateral and unilateral, for doing so.
    The mere fact that Iran continues to make these advances on 
intercontinental ballistic missiles--ICBMs--and other ballistic 
missiles--weapons that have very little practical use outside 
of delivering a nuclear payload--simply belies the notion that 
Iran's nuclear program is intended for peaceful uses.
    Taken with reports that Iran's nuclear stockpiles have 
actually grown during the negotiations, this demonstrates the 
regime's clear and undeniable intent to develop a nuclear 
weapon. For the sake of negotiations, Iran's ballistic missile 
program is off limits.
    But for the sake of lifting the sanctions on Iran at the 
U.N. Security Council, everything is nuclear related as the 
administration aims to lift as many sanctions as possible, in 
turn giving Iran more access to billions of dollars. This makes 
no sense and it is dangerous.
    So what impact will a potential nuclear deal have on Iran's 
ballistic missile program, our U.S. national security and the 
stability of the region?
    Well, if the Iranian regime gets this reported $50 billion 
signing bonus, a good portion of that money will get invested 
right back into Iran's illicit activities, including its 
ballistic missile program.
    As the U.N. panel of experts reported last week, we are 
already having a difficult time maintaining these sanctions as 
many nations are looking the other way on sanctions in 
expectations that they will get lifted.
    When the sanctions are lifted, Iran will go back to working 
with its allies--the regimes of North Korea, Syria, Russia and 
China--to acquire what it needs to further advance its 
ballistic missile program.
    Iran and Syria have obtained ballistic missiles and 
technology from North Korea, a nexus that the Obama 
administration has failed to address head on by not 
prioritizing INKSNA sanctions against these dangerous regimes.
    With ballistic missiles already able to hit parts of Europe 
and target our ally, the democratic Jewish State of Israel, 
Iran will soon be able to create more sophisticated ballistic 
missiles that are more capable and Iran will be able to advance 
its ICBM program that one would be capable of hitting us here 
in the U.S.
    Iran has the most extensive ballistic missile arsenal in 
the Middle East, with the intelligence community assessing that 
Iran has a substantial inventory of medium-range ballistic 
missiles including the Shahab and its variants.
    Iran's space program is a cover for its continued ICBM 
program, as the two would share many similarities. If Iran's 
nuclear and ballistic missile programs go unchecked it will 
give Tehran the ability to continue to perfect their ballistic 
missile program to be used once the nuclear deal expires.
    We have already seen Russia lift its suspension on the sale 
of S-300 missile systems to Iran. These S-300s will give Iran a 
new capability to defend its nuclear facilities or its 
ballistic missile platforms.
    The ink wasn't even dry yet on the framework agreement and 
Russia moved in to take advantage because Putin surely expects 
the Iranian sanctions to be lifted.
    This nuclear deal is not only the legitimization that Iran 
has sought on the international stage. It is also the green 
light that it needs to continue to pursue nuclear weapons and 
the platforms with which they would be delivered.
    I am done with my opening statement. I would like to ask 
Mr. Deutch if it is okay if I could recognize Chairman Royce.
    Mr. Deutch. Of course.
    Ms. Ros-Lehtinen. Thank you so much for joining us, 
Chairman Royce, and Mr. Deutch is always a gentleman. Mr. Royce 
is recognized for as long as he would like.
    Chairman Royce. Thank you, Chairwoman. Appreciate it and 
appreciate you holding this hearing.
    And in many ways, Iran's missile program has been a case 
study in how the Obama administration has handled these nuclear 
negotiations with Iran from the beginning and it is a case 
study in that it, again, reflects a situation where the United 
States has backed off in terms of the requirement.
    When the negotiations kicked off, the White House was 
insistent--and I am going to use their words now--insistent 
that the Iranians have to deal with matters related to their 
ballistic missile program.
    After all, the U.N. Security Council resolutions prohibit 
Iran's work on ballistic missiles capable of delivering nuclear 
weapons.
    So here is the situation we are in. Iran's Supreme Leader, 
after he heard these remarks, declared that this is a ``stupid 
idiotic expectation'' and he called it the main duty of all 
military officials in Iran to ``mass produce ICBMs.'' Soon, 
State Department negotiator Wendy Sherman was telling the 
committee as a result that U.N. missile sanctions are not about 
ballistic missiles per se--they are about nuclear-armed 
missiles.''
    So the whole--the whole argument changed. The problem is 
that ballistic missiles are the most reliable way to deliver 
nuclear warheads.
    Indeed, as we will hear this morning, ballistic missiles 
are not a separate and secondary issue but part and parcel of 
Iran's nuclear weapons infrastructure.
    That is why Congress has targeted Iran's missile program 
with sanctions right alongside its nuclear program, and we had 
intended that to be part of this agreement.
    One witness calls the development of a long-range missile 
program a litmus test for a country's nuclear intentions, 
asserting that no country that has not aspired to possess 
nuclear weapons has ever opted to sustain a lengthy and 
expensive missile program.
    Iran is pressing ahead with both. Remember that when Libya 
and South Africa renounced nuclear weapons, by the way, in the 
case of applying sanctions on South Africa--that is one of the 
ways we got them to capitulate--when they made that 
announcement they also gave up the missile programs that went 
along with them.
    That is a long way from the, to quote the ayatollah, the 
``mass produce'' directive given to the military--a long way 
from that attitude of the Supreme Leader there.
    Recently, this committee heard about the negotiating gains 
the Obama administration will need to make over the next few 
weeks to get an agreement that has a chance of being 
meaningfully verified.
    Given the relative ease in detecting nuclear programs, 
missile restrictions could be a key source of verification in 
any sort agreement with Iran. As one witness recalls, Reagan's 
``trust but verify'' didn't rely on tracking nuclear fuel 
stockpiles or centrifuges but instead on counting Soviet 
delivery systems.
    And how close is Iran to achieving a nuclear warhead? Iran 
continues to stonewall the IAEA on key questions--all 12 key 
questions--including missile warhead design that its inspectors 
began pressing for over 3\1/2\ years ago now.
    So we just don't know. Unfortunately, in the run-up to the 
June 30th deadline, the Obama administration has shown no 
interest in working to stop Iran's ICBM program, instead boldly 
claiming that its agreement will cut off every path to a 
nuclear weapon.
    But as one witness asks, if the agreement effectively 
blocks Iran's path to nuclear weapons, why would Iran continue 
to work on a costly weapons system that could never be 
effectively armed.
    And with the vast sanctions relief that is coming to Iran, 
there will be billions more for Iran to invest in and improve 
that ICBM program, which is, by the way, an increasing threat 
to U.S. forces and partners in the region and eventually to our 
allies in Europe and here at home.
    And if you doubt that they are going to use the sanctions 
relief on that program, I would just ask anyone to explain how 
it is that over this last month we have seen the reports about 
Iran transferring now the precision missiles that they have 
developed to Hezbollah so that now Hezbollah that already has 
80,000 rockets and missiles, thanks to, you know, the 
generosity of Iran, is going to go to 100,000, is going to have 
precision-guided missiles and at the same time a new generation 
of missiles are being transferred to Hamas, by the way, along 
with a statement by Iran that they are going to rebuild the 
tunnels for Hamas.
    This telegraphs the intentions--the attitude and the 
intentions--of this regime and their intentions are clearly 
there to mass produce ICBMs.
    Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Well put. Thank you so much, and we are 
honored that you would join us, Chairman Royce.
    And now, thank you for your kindness. Mr. Deutch of 
Florida.
    Mr. Deutch. Thank you, Madam Chairman.
    Thank you, Mr. Chairman, for joining us today and thanks to 
our esteemed witnesses for being here as well.
    We are 20 days out from the imposed deadline to reach a 
deal to prevent Iran from acquiring nuclear weapons. The world 
has rightfully so been focused on the nuclear issue for the 
better part of 2 years.
    But in that time, while Iran's diplomats sit face to face 
with the P5+1 negotiators, the regime has continued to engage 
in dangerous activities, everything from human rights abuses 
against its own people to the transfer of arms in violation of 
U.N. Security Council resolutions to material support for the 
Assad regime to supply Hezbollah with weapons, to the continued 
development of its ballistic missile program, a program, I 
might add, that has been subject to United Nations Security 
Council resolutions in 2006, 2007, 2008 and 2010.
    Much of this program has relied on illicit transfer of 
technology and supplies from other pariah states like North 
Korea. Beginning in the early 1990s, Iran received help from 
Russia and China. Vestiges of those relationships may remain.
    It is unclear to what extent Iran's program has become 
increasingly self-reliant in the face of international 
sanctions. However, aspects of the Iran-North Korea nexus 
continue to come to light.
    Just recently, press reports surfaced detailed an Iranian 
dissident group's claim that a delegation of North Korean 
scientists were in Iran for the third time this year, and while 
those reports remain unconfirmed, the State Department did say 
that it would take any such reports seriously.
    The United States' national intelligence estimate of 1999 
predicted that Iran could test an ICBM in the year 2015. Now, 
thankfully, it continues to appear that Iran remains far from 
ready to meet that goal.
    But given the opaque nature of its program, it is difficult 
to assess just how far it has progressed and while Iran's 
leaders have been known to make exaggerated claims it is 
impossible to leave anything to chance when it comes to this 
regime.
    We do know that Iran has successfully developed short- and 
medium-range ballistic missiles and we know that Iran continues 
to work on space launch vehicles, likely as a cover for its aim 
to develop an ICBM.
    Many experts wonder what practical use could this regime 
possibly have for these advanced capabilities if not to carry a 
nuclear warhead. Iran's short- and medium-range capabilities, 
if precise, have the potential to threaten our regional allies 
or, potentially, Europe, as President Obama warned in 2009.
    And while Iran may not be interested in regional state 
versus state conflict at this time, it does not mean that their 
nonstate proxies would hesitate to use these dangerous weapons.
    It is already estimated that Hezbollah has 100,000 missiles 
and rockets capable of striking anywhere in Israel. As Iran 
continues to develop its missile capabilities, Hezbollah is the 
natural beneficiary.
    Should Israel encounter another conflict with Hezbollah 
precision missiles could do incredible damage. Last year, the 
Times of Israel reported on a story from Iran's semi-official 
Fars News Agency which claimed the IRGC delivered a new class 
of missiles to Hezbollah with ranges of 250 to 350 kilometers 
and which can fit a 500 kilogram warhead.
    An IRGC brigadier general told the news agency that the new 
missiles will allow Hezbollah to hit any place in Israel 
``including targets in the south of the occupied territory.''
    He was also quoted as saying the Israel nuclear facility at 
Dimona is an easy target and Israeli missile experts quoted in 
the same report claimed that this class of missiles will be 
five times more accurate than the scuds Hezbollah had fired in 
the past.
    Further, with reports of Iran mending its relations with 
Hamas, have any new advanced missile transfers taken place 
between these two bad actors or with Iran's more closely tied 
Gaza proxy, Islamic jihad.
    I would note that this is yet another reason that our joint 
missile defense cooperation with Israel receives such broad 
support from Congress and the administration. Iran's unwavering 
support for the brutal Assad regime also calls into question 
whether Iran and Syria have continued cooperation on ballistic 
missiles.
    I also worry that even the mere perception of advanced 
ballistic missile capabilities could embolden Iran's behavior. 
However, Iran does not currently possess advanced missile 
defense systems which could deter it from any regional 
provocations.
    This is all the more reason that it is imperative that 
Russia does not proceed with the sale of the S-300 missile 
defense system to Iran and the administration must continue to 
make clear that that sale cannot proceed.
    We must also continue to increase our cooperation and 
interoperability with our Gulf partners to ensure that they 
have adequate defense systems against these threats. And as we 
increase our presence in the Gulf, I would ask our panel what 
threat do Iran's current ballistic missile capabilities pose to 
our own assets in the region.
    So to circle back where I began, we have been focused on 
the nuclear issue. But whether or not a deal is reached at the 
end of this month should have no bearing on the continued 
international sanctions on Iran's missile development.
    I was disturbed by a U.N. report made public yesterday that 
despite Iran having a known illicit procurement network with 
continued activities often reported in the press, no new 
sanctions violations have been reported to the U.N. by any 
member countries.
    Furthermore, the Associated Press reported this morning 
that the United States might consider ballistic missile 
sanctions to be nuclear-related sanctions, therefore creating 
the possibility that these two could be lifted in a nuclear 
deal.
    That is extremely disturbing. I would just like to quote 
the article, Madam Chairman, in which officials say the 
administration can meet its obligations because of how it 
interprets nuclear sanctions.
    For example, they say measures designed to stop Iran from 
acquiring ballistic missiles are nuclear related because they 
were imposed to push Iran into the negotiations. Also, they say 
sanctions that may appear nonnuclear are often undergirded by 
previous actions conceived as efforts to stop Iran's nuclear 
program.
    We know that our sanctions regime is complex, but now to 
say that ballistic missile sanctions were simply a tool to get 
Iran to the negotiating table as was suggested by an unnamed 
administration official would be a grave mistake.
    And to the article's anonymous administration official I 
would say that these ballistic missile sanctions must be--
remain in place and they must be enforced.
    With or without nuclear weapons, this remains an 
extraordinarily dangerous regime and allowing it to develop 
advanced missile technology risks continued destabilization of 
the entire Middle East.
    And I look forward to our witnesses' views on whether they 
share my serious concerns and I yield back. Thank you, Madam 
Chairman.
    Ms. Ros-Lehtinen. I share them. Thank you so much, Mr. 
Deutch.
    I am now pleased to recognize the members for 1-minute 
opening statements and we will begin with Mr. Wilson of South 
Carolina.
    Mr. Wilson. Madam Chairwoman, thank you for having this 
important hearing on the ballistic missile threat in Iran. Your 
leadership for America makes a difference along with Chairman 
Ed Royce, and I am very grateful to see the bipartisan support 
that we have this morning on the concerns about the threats to 
the people of--throughout the Middle East, Central Asia and 
southeastern Europe.
    Their capabilities with potential nuclear weapons and long-
range ballistic missiles threaten our allies in the region, 
especially Israel, with the regime's goal of death to Israel, 
death to America.
    The murderous philosophy of the Iranian regime has not 
changed since Iran's leaders murdered 241 U.S. Marines in 
Beirut in 1983. The American people know the Iranian 
government, which subjugates its own people, cannot be trusted.
    The President continues to ignore the glaring realities of 
the threat that Iran poses to American families and to 
neighboring countries of the Persian Gulf.
    I believe a nuclear Iran, along with long-range ballistic 
missiles, would be catastrophic and the President should change 
course.
    Thank you, Madam Chairwoman.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Wilson.
    Mr. Higgins of New York is recognized.
    Mr. Higgins. Thank you, Madam Chair.
    The nuclear negotiations with Iran have focused primarily 
on material and infrastructure, and when you look at the fact 
that Iran has the largest and most diverse ballistics missile 
program in the entire Middle East you can't ignore the fact 
that that is a fundamental piece of the nuclear infrastructure 
as it is the most reliable means to deliver a nuclear weapon.
    So I think it is very, very important that this committee 
delve deeply into this issue and take advantage of the 
expertise that we have here so that we can refute any efforts 
to decouple these two issues because I think any review of the 
ballistics missile program, which dates back prior to the 
Iranian revolution in 1979 when in fact it was Israel and Iran 
that collaborated in the first ballistics missile program, Iran 
had provided the money and Israel had provided the technology 
when the United States refused to sell them Lance missiles.
    So there is a lot to study here and I am hopeful that the 
panel can help the committee determine, you know, a course of 
action here that is constructive. Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. Higgins.
    Mr. Trott is recognized.
    Mr. Trott. I want to begin by thanking the chairwoman and 
ranking member for holding this timely hearing. As we approach 
the June 30th deadline it is important for Congress to be as 
informed as possible regarding Iran's stockpile of weapons.
    Most experts agree that Iran has the largest ballistic 
missile arsenal in the Middle East, most of it coming from 
another rogue country, North Korea.
    Senior U.S. intelligence officials have consistently warned 
about Iran's potential to deliver weapons of mass destruction 
with these missiles. Yet, when the administration got to the 
bargaining table they made concessions and decided not to 
include the ballistic missile program in the Joint Plan of 
Action.
    As recently as last week the Pentagon reported that Iran 
continues to develop ballistic missile technology that will 
undoubtedly be used for nuclear weapons.
    If Iran were to successfully engineer a nuclear warhead at 
one of their various covert facilities, the ballistic missiles 
would enable them to attach a warhead and put our closest ally, 
Israel, at significant risk.
    Even without a nuclear warhead, Iran's arsenal of ballistic 
missiles can be used as an intimidation tool against vulnerable 
countries in the region.
    I look forward to hearing the witnesses' testimonies today 
and I for one do not believe Iran will change. An America 
projecting weakness will not create stability and only 
exacerbates a problem that already threatens our security and 
the security of our friends.
    Thank you, and I yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    Ms. Meng of New York.
    Mr. Connolly, a former Senate staffer----
    Mr. Connolly. You knew that.
    Ms. Ros-Lehtinen. That is why I overlooked you. You know 
how we treat our staffers.
    Mr. Connolly. I know, but I have converted. I am a House 
guy.
    Ms. Ros-Lehtinen. Thank you. Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman. Thank you to the 
panel for being here. This is, really, a critical conversation 
and there are some questions I hope we get answers to during 
the course of this conversation.
    What is your assessment of the nature of the threat? How 
serious is it and what is the time frame associated with it? 
What is our power to deter that threat?
    We give flowery speeches up here and passionate speeches 
but sometimes we don't accept the fact that America's ability 
to influence things and control things is limited. What are the 
incentives on Iran to desist?
    Do we have any and how well might they work? What does it 
mean in the region in terms of escalation? If they develop a 
ballistic missile capability that is precise, what pressure 
does that put on others in the region like the Saudis to do 
likewise?
    And then finally, how well is this issue addressed or will 
be addressed in the proposed agreement--nuclear agreement with 
Iran?
    Thank you, Madam Chairman. I look forward to the answers.
    Ms. Ros-Lehtinen. Thank you, and I apologize again, Mr. 
Connolly.
    Mr. Connolly. No problem.
    Ms. Ros-Lehtinen. And I know that Mr. Brooks and Mr. 
DeSantis will wait for the question and answer period so we 
will go to Mr. Zeldin of New York.
    Mr. Zeldin. Thank you, Madam Chairwoman, and I appreciate 
you having this important hearing, also to Chairman Royce and 
Ranking Member Deutch.
    We have a very distinguished panel today of witnesses. As a 
former Army military intelligence officer stationed in Fort 
Huachuca, Arizona while Lieutenant General Flynn was there--I 
thank you for your service and it is good to have you here.
    The is a very timely topic because I think for constituents 
like mine and all across America if an announcement is made 
that a deal is reached, Americans are going to want to make a 
decision for themselves as to whether or not it was a good deal 
or a bad deal and they want to know more as to what exactly to 
look for.
    So, hopefully, in the dialogue today and the questions and 
answers this provides an opportunity not just for Members of 
Congress to understand more of what to look for in analyzing a 
potential deal with Iran but also assisting our constituents so 
that they understand just how real this threat is and what is 
absolutely necessary to tackle these challenges.
    Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Mr. Zeldin.
    Ms. Meng of New York.
    Ms. Meng. Thank you, Madam Chair and Ranking Member, for 
calling this important hearing and to all our distinguished 
witnesses for being with us today.
    Iran's development of its ballistic missile program, its 
acquisition of new SME batteries, its widespread support for 
terrorism and its arming of Hamas and Hezbollah with potent new 
weapons, amongst many other nefarious activities, pose serious 
threats to the security of America and our allies.
    Yet all of these issues are outside the scope of the 
nuclear negotiations and if they are going to remain such then 
we should support our friends in ways that are also outside the 
scope of negotiations.
    The U.S. should consider transferring massive ordnance 
penetrators, otherwise known as the 30,000-pound bunker buster 
bombs and the planes to deliver them, to Israel. In the face of 
the grave Iranian threat, let us provide adequate means of 
deterrence to Israel, our most trustworthy friend and ally in 
the Middle East.
    Thank you, and I yield back.
    Ms. Ros-Lehtinen. Thank you, Ms. Meng, and I would like to 
thank the gentleman from Alabama who was here with us for the 
opening statements, Mr. Rogers, chairman of the Strategic 
Forces Subcommittee of the Armed Services Committee for being 
with us for the start of the hearing.
    Thank you so much to all of our members and now I am 
pleased to recognize our panelists. First, we are pleased to 
welcome General Michael Flynn.
    General Flynn served in the United States Army for 33 years 
and almost 1 year ago retired from his previous post as 
director of the Defense Intelligence Agency. Thank you, 
General, for being with us and for your distinguished and 
meritorious service to our nation.
    Second, we welcome Ambassador Robert Joseph. He is a senior 
scholar at the National Institute for Public Policy. 
Previously, Ambassador Joseph served as the United States 
special envoy for nuclear nonproliferation and under secretary 
of state for arms control and international security. Welcome, 
Mr. Ambassador.
    Next, we welcome Dr. David Cooper who is the James 
Forrestal Chair of the U.S. Naval War College, Department of 
National Security Affairs. Dr. Cooper has served in the Office 
of the Secretary of Defense as director of nonproliferation 
policy.
    And last, we welcome back a good friend of our 
subcommittee, Dr. Anthony Cordesman, the Arleigh Burke Chair in 
strategy at the Center for Strategic and International Studies.
    Previously, Dr. Cordesman served as director of 
intelligence assessment in the Office of the Secretary of 
Defense as well as the director of policy and planning at the 
Department of Energy.
    Thank you, gentlemen, for being with us. Your prepared 
statements will be made a part of the record. Please feel free 
to summarize. Thank you.
    General, we will begin with you.

STATEMENT OF LIEUTENANT GENERAL MICHAEL T. FLYNN, USA, RETIRED 
         (FORMER DIRECTOR, DEFENSE INTELLIGENCE AGENCY)

    General Flynn. Thank you. Thank you, Madam Chairman, and 
Madam Chairman Ros-Lehtinen and Ranking Member Deutch, members 
of the joint committee, and I really do appreciate all of your 
statements. I think you really truly understand the challenges 
that we are facing.
    Thanks for the opportunity to present my views on Iran's 
missile capabilities and how they impact regional as well as 
global issues now and in the future.
    These will directly and negatively impact the United States 
national security unless we develop a long-term strategy for 
our nation.
    There is just no way around it. Our closed 20th century 
bureaucratic system appears unable to adapt to the rapid and 
complex changes in threats we face in the 21st century, 
especially those occurring throughout the Middle East and the 
wider trans region.
    These problems are exacerbated from an ever expanding 
influence by the following--number one, the negative behavior 
and expanding influence of the Islamic Republic of Iran; number 
two, the increasing complexity in Iraq and Syria with 
absolutely no end in sight and no clear U.S. policy; number 
three, the new Middle East struggling to be born, and if we are 
not careful the United States will be left out of the growth of 
this region and our security at home will be placed at further 
risk; number four, the unfinished revolutions in places such as 
Yemen and parts of Africa and our ongoing transition in 
Afghanistan are all being taken advantage of by Iran, ISIS and 
al-Qaeda; number five, the resurgence of Russian and Chinese 
influence in the region, especially in the nuclear energy 
acquisition and development arenas, weapons proliferation and 
economic dominance, all clearly impacting the security of our 
country.
    Not only do these impact our security at home but they also 
impact our allies and friends in the region, most important, 
the state of Israel.
    Specifically focusing on the expanding Iranian missile 
program or missile development program and failing to 
acknowledge the frequent warnings from our intelligence 
community, especially defense intelligence, regarding the 
hegemonic behaviors of the Islamic Republic of Iran, Iran's 
missile program is growing far stronger.
    Before I address a few solutions about what to do about 
their missile program I want to offer some things that I know, 
things that I believe and things that I don't know but suspect 
and there are many in my full statement that I provided to the 
committee.
    Number one, to begin with, the nuclear deals that will 
likely be concluded this summer suffers from severe 
deficiencies, as you have all highlighted. Number two, Iran has 
every intention to build an ICBM and a nuclear weapons program.
    Number three, Iran's stated desire to destroy Israel is 
very real. We have to take that very seriously. Number four, 
Iran killed or maimed thousands of Americans and Iraqis during 
our fight in Iraq during the period of 2003 to 2011 and despite 
our joint efforts to win the fight in Iraq this has all now 
been squandered.
    Number five, the ability to have real eyes on the state of 
Iranian nuclear development to include their missile program is 
nearly impossible. Six, Iran's nuclear program has significant 
and not fully disclosed military dimensions including the 
warhead miniaturization blueprints.
    Number seven, I believe that Iran's overarching strategic 
goals of enhancing its security, prestige and regional 
influence give it the ability to build missile-deliverable 
nuclear weapons.
    Number eight, I believe that Tehran would choose ballistic 
missiles as its preferred method of delivering nuclear weapons. 
Number nine, I know Iran possesses a substantial inventory of 
theater ballistic missiles capable of reaching parts of 
southeastern Europe today.
    Number ten, I know Iran is developing increasingly 
sophisticated missiles and improving the range and accuracy of 
its other missile systems. It is clear that the nuclear deal is 
not a permanent fix but merely a placeholder.
    The 10-year time frame only makes sense if the 
administration truly believes the Iranian regime will change 
its strategic course. Just as the spiralling down of the entire 
region is unlikely to change, believing Iran will change its 
strategic course is also wishful thinking.
    As the Washington Post editorialists have said, regime 
change in Tehran is the best way to stop the Iranian nuclear 
weapons program. The same applies to their missile arsenal 
which is of high quality and growing.
    Even today, their missiles cover most of the Middle East 
and the next generation will include ICBMs capable of attacking 
the American homeland.
    Just look at the cooperation with North Korea, China and 
Russia. Connect those dots and you get the outline of a global 
alliance aimed at the United States and our friends and allies.
    Russian assistance, North Korean cooperation and deep 
involvement by the Chinese and Iran are all part of a broader 
pattern. And finally, the U.S. intelligence community's record 
in tracking clandestine nuclear weapons programs has been 
decidedly mixed.
    For instance, the U.S. had suspected for well over a decade 
that North Korea had a uranium enrichment program but did not 
learn about that--its centrifuge plan at Yongbyon until the 
plant was actually shown visibly to a delegation of former U.S. 
officials in 2010.
    The U.S. did not learn about the reactor that North Korea 
was building in eastern Syria--the al-Kibar site--until it was 
close to completion in 2007.
    The U.S. intelligence community did not become aware until 
nearly 4 years later that Iran had apparently suspended its 
structured weaponization program in 2003.
    The U.S. did not learn about Iran's enrichment plans at 
Natanz or Fordow until several years after work on each had 
commenced, albeit several years before each became operational.
    Other examples include Iraq prior to '91, South Africa in 
1993 and the A.Q. Khan network operating for well over a 
decade. Moreover, a recent Defense Science Board study of 
nuclear monitoring and verification technologies concluded that 
technologies and processes designed for current treaty 
verification and inspections are inadequate to future 
monitoring realities such as identifying small or nascent 
nuclear programs.
    This seems to imply that creative missile and nuclear 
proliferation would enjoy an advantage in the cat and mouse 
game that they are playing with the United States and the 
international community.
    There are a number of things that the international 
community can do. For instance, immediately direct Iran to open 
up all of its facilities--scientific, military and current 
nuclear facilities--for international inspections.
    Two would be the U.S. must take a more active role in the 
region for what will be a race for nuclearization, preferring 
energy development over weaponization.
    Number three, provide and/or demand greater authorities for 
all elements of U.S. national power to defeat the Islamic 
radicals we now call the Islamic State.
    Put them out of business, or seek and appoint leaders 
regionally, internationally and right here at home, give them 
the right and appropriate authorities that can actually 
accomplish the strategic objectives that we see.
    Immediately recognize, fully support, help organize and 
assist those regional partners create an Arab NATO-like 
structure and framework.
    Help build an Arab army that is able to secure their 
regional responsibilities. Clearly define and recognize that we 
face a very radicalized element in the likes of Islamic 
extremism, Sunni and Shi'a.
    The administration's refusal to state what we can plainly 
see is beyond irresponsible and ranges on being dangerous for 
the long-term security of the United States.
    So what will the overall threat environment look like with 
regard to Iran and its expansion of its missile program? We 
should expect a far more aggressive Iran as it relates to the 
Gulf both overtly and covertly and one that will likely remain 
militarily engaged for the foreseeable future.
    While the sectarian angle is likely to limit Iran's ability 
to support Sunni proxies and thereby limit their ability to 
project power, the ISIL crisis has created a significant cadre 
of Shi'a jihadists that can and will support Iran's policies 
through means fair and foul.
    If Iran is able to contain and defeat ISIL and subjugate 
through proxies large portions of Iraq Sunni population, we 
should expect a whole host of initiatives intended to limit and 
eliminate Iranian influence by both state and private actors as 
is now occurring in Yemen.
    Ms. Ros-Lehtinen. General, if we could ask you to wrap it 
up.
    General Flynn. Yes, ma'am.
    Ms. Ros-Lehtinen. Thank you.
    General Flynn. I will wrap it up here. My bottom line is 
that I am assuming that the nuclear deal is going to be done 
and I think what we have to realize practically is that we have 
a country that we are dealing with that the rest of the region 
and the reasons why we have been dealing with them--the rest of 
the region has lost trust and faith in the United States of 
America and that is very real, and I think the latest GCC 
summit was a real example.
    It was a leaderless summit for a very specific reason and 
it was because the region just doesn't trust us and actually 
the region is more concerned about Iranian hegemonic behavior 
and gaining massive influence in the entire region than they 
are right now about Iran developing a nuclear weapon.
    Now, the development of a nuclear weapon and its ballistic 
missile component is something that I firmly believe is going 
to happen and we just don't have that kind of track record in 
the past for tracking that.
    So, Madam Chairman, thank you very much for allowing me to 
make some statements here and I look forward to questions. 
Thank you.
    [The prepared statement of Lieutenant General Flynn 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, General, and you honor 
us with your presence. Thank you.
    Ambassador.

    STATEMENT OF THE HONORABLE ROBERT JOSEPH, PH.D., SENIOR 
  SCHOLAR, NATIONAL INSTITUTE FOR PUBLIC POLICY (FORMER UNDER 
SECRETARY OF STATE FOR ARMS CONTROL AND INTERNATIONAL SECURITY)

    Mr. Joseph. Good morning, Madam Chairwoman, Ranking Member 
Deutch, other distinguished members. Thank you for the 
invitation to testify today.
    In my prepared statement I highlight a number of 
observations about Iran's ballistic missile threat. Here I 
would just reinforce the point that Iran's ballistic missiles 
are tools of coercion designed for strategic effect and as such 
I would emphasize the nexus between Iran's ballistic missiles 
and its nuclear program.
    In a strategic context, a nuclear front end would add 
tremendously to the coercive effect of Iran's missiles. In an 
operational context, nuclear warheads would be the primary and, 
in my view, the only feasible payload for its longer range 
missiles.
    And for these reasons I believe it is analytically flawed 
to assess the missile threat in isolation from the nuclear 
negotiations. The stated goal of the P5+1 has evolved from 
denying Iran a nuclear weapons capability to temporarily 
extending the breakout time--a change that recognizes Iran as a 
nuclear weapons threshold state.
    So even in the unlikely circumstance that all U.S. 
negotiating goals are met after the restrictions are lifted in 
10 or more years, Iran would again possess the capacity to 
break out within a few months or even weeks, and that is the 
best case. In fact, the missile nuclear relationship is 
critical in any near-term breakout scenario.
    For this reason, failure to limit ballistic missiles must 
be considered one of several central flaws in the emerging 
agreement.
    One argument used to justify excluding missiles is that if 
Iran's nuclear weapons capability is precluded by the 
agreement, the threat of a nuclear-tipped missile goes away.
    There are a number of assumptions on which this argument is 
based. It assumes that permitting a large-scale enrichment 
capability is compatible with the goal of denying Iran a 
nuclear weapon.
    It assumes that the 12-month breakout time is meaningful. 
It assumes effective verification and it assumes that the 
international community will respond to cheating before Iran 
can mate a nuclear weapon to a missile.
    In my view, none of these assumptions hold up under 
scrutiny. Any agreement that allows Iran to continue to build 
its missile force while permitting it to maintain and in fact 
expand its nuclear capability will have severe negative 
consequences for the United States and our friends and allies.
    The threat to U.S. forces, to the U.S. homeland, to our 
NATO and Gulf allies and to Israel will increase, not decrease, 
under the anticipated agreement.
    Another consequence of a bad agreement is the increased 
prospect for proliferation. One likely result will be decisions 
by other states to acquire a similar capability.
    These states--Saudi Arabia, perhaps Turkey, perhaps Egypt 
and others--will want to ensure that they are not one step 
behind Iran unleashing the proliferation dynamic. And an 
agreement that effectively provides a stamp of approval for 
Iran's nuclear activities will only give encouragement to other 
proliferators.
    Finally, because missiles are excluded at Iran's 
insistence, the message to other rogue states will be that we 
are not serious about imposing costs for missile proliferation.
    This could be a further incentive for those states seeking 
weapons of mass destruction to acquire ballistic missiles as a 
means of delivery. For Iran, it could encourage even closer 
cooperation with North Korea on missile technology and perhaps 
in the nuclear weapons field.
    With tens of billions of dollars in sanctions relief, Iran 
will have access to more resources for more missiles, for other 
weapons and for more terrorist activities. That agreement will 
result in a less stable and more dangerous world.
    I have four recommendations for congressional action. One, 
if there is an agreement--if one is reached, vote on it and 
reject it if is a bad agreement. I think the metrics are clear. 
Just ask yourself, does the agreement deny Iran a nuclear 
weapons capability?
    Does the agreement extend the breakout time in a meaningful 
way? Is the agreement verifiable? Is there a phased relief of 
sanctions and are there guaranteed snap back provisions and I 
think for each of these questions the answer is, clearly, no.
    Second, to the extent that it can be done, tie incremental 
sanctions relief to the fulfilment of Iran's commitments. 
Third, establish a Team B of nonpartisan experts to assess 
Iran's compliance.
    And four, move forward with funding for missile defenses 
against the emerging Iranian nuclear armed ICBM class missile 
threat.
    Let me just sum up by saying that I come at these issues 
from a nonproliferation perspective. In my view, if there is an 
agreement along the lines that has been described by the White 
House and by the Iranian leadership, I believe it will 
represent perhaps the single greatest strategic mistake in the 
national security area in the past 35-plus years of my career, 
and this includes some real blunders.
    Desert One in 1980, the North Korea agreed framework in 
1994 and, more recently, Russia reset and the Syria CW red line 
debacle. There is no doubt that some will describe the 
agreement as historic.
    You can expect that from the White House. You can expect 
that from the New York Times and it will be historic. It will 
be a historic blunder.
    Thank you very much, Madam Chairman.
    [The prepared statement of Mr. Joseph follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Mr. Ambassador.
    Dr. Cooper.

    STATEMENT OF DAVID A. COOPER, PH.D., JAMES V. FORRESTAL 
  PROFESSOR AND CHAIR OF THE DEPARTMENT OF NATIONAL SECURITY 
                AFFAIRS, U.S. NAVAL WAR COLLEGE

    Mr. Cooper. Madam Chair, Ranking Member Deutch, other 
distinguished members of the committee, thank you for having me 
and I look forward to briefly summarizing a few key points from 
my written statement, which I should note are solely my own.
    In my statement, I note four problematic implications of 
not including missiles in the emergent nuclear deal with Iran 
being negotiated by the P5+1.
    One, most fundamentally is raising troubling questions 
about Iranian intentions and this is to a point that has been 
made by a number of you already and that is that there is a 
very close correlation between longer range, meaning 
intermediate range and beyond ballistic missiles and nuclear 
weapons power ambitions.
    And so at this moment, Iran is the only country in the 
world that says it has no nuclear weapons ambitions and yet has 
fielded an intermediate range ballistic missile.
    The second is verification. Verification is something where 
historically we have had a lot of experience using delivery 
systems in particular missiles as an object of verification and 
have shown that it is possible to have very strong confidence 
in the ability to verify agreements that include provisions 
with restrictions and transparency on such systems in contrast 
to a very patchy record of verification in terms of verifying 
nuclear fuel cycles and weapons programs per se.
    The third is breakout. It has been noted that nuclear 
weapons programs are a long-term process, but even more so 
ballistic missile programs.
    In this respect, I should say many horses are already out 
of this barn but there's still an ICBM horse in the barn, at 
least for now, and that ICBM horse may well be the long pole in 
the Iranian tent in terms of being able to break out and become 
a full scope nuclear power.
    And finally, undermining missile nonproliferation, and this 
has been said and I would reinforce what has been said it is 
going to be challenging if Iran is perceived to be given a 
clean bill of nuclear nonproliferation health through this 
agreement to preserve the nuclear--excuse me, the missile 
nonproliferation regime which we have traditionally so 
associated with nuclear weapons.
    And indeed, it has been an Iranian goal for decades to 
undermine the legitimacy of the very concept of missile 
nonproliferation.
    So it will be a tremendous challenge if this agreement goes 
through to preserve a robust missile nonproliferation regime 
against Iran and, indeed, more widely.
    Let me summarize by saying there are three acknowledged 
pillars to what a safer nuclear program looks like from a 
nonproliferation standard--one, no indigenous enrichment or 
reprocessing; two, open transparency including full disclosure 
and resolution of past activities and an additional protocol in 
place with the IAEA; and three, no associated weapons programs 
and in particular long-range ballistic missiles.
    The prospective P5+1 deal may prove to be a negative 
trifecta in all three of these areas. However, the ballistic 
missile area is the only one that it does not appear to even 
attempt to address and that, I would say, again, is a very 
worrying indication that should raise questions.
    Thank you very much.
    [The prepared statement of Mr. Cooper follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Dr. Cooper.
    Dr. Cordesman.

  STATEMENT OF ANTHONY H. CORDESMAN, PH.D., ARLEIGH A. BURKE 
   CHAIR IN STRATEGY, CENTER FOR STRATEGIC AND INTERNATIONAL 
                            STUDIES

    Mr. Cordesman. Thank you, Madam Chairman, and the members 
of the committee. A lot of very good points have already been 
raised.
    Ms. Ros-Lehtinen. If you could hold up your mic--put your 
microphone a little closer.
    Mr. Cordesman. Members of the committee and the previous 
witnesses have already raised a number of very good issues. But 
I would like to briefly talk about Iranian motivation.
    It is important to remember this is a country coming out of 
missile wars with Iraq--the so-called war of the cities--and I 
was in Iraq when I saw the Iranian side of this.
    It is also a matter of a feeling of isolation, of having 
been attacked with chemical weapons, of seeing weapons of mass 
destruction as real, as something that affected troops and 
civilians.
    They look around and they see a very well developed Israeli 
nuclear missile force. Pakistan--a Saudi missile force with 
Chinese-supplied missiles. They also see a rising confrontation 
between Sunni and Shi'ite--extremism of a Sunni kind counting 
extremism if their own kind.
    And you look at this environment and you ask yourself are 
you going to be moving toward stability with or without a 
nuclear agreement. And you look at the history of START, of 
SALT, of our efforts to negotiate with North Korea. In every 
case, it turned into an ongoing duel. That duel is not ended 
with Russia. It still is a problem where we have not brought 
stability or security through the arms control alone.
    The other side of this from an Iranian viewpoint is that 
most of the conventional forces are old. Many were essentially 
systems which were, again, to be deployed when I was serving in 
Iran. That was back in the early 1970s.
    They do not have an effective conventional force. They do 
have a very effective asymmetric warfare force. As has already 
been said, they can reach out very effectively to other 
countries and they are doing that in Iraq, Yemen, Lebanon.
    These are very real issues and one of the key aspects of 
being able to use those tools is to have the ability to deter 
retaliation air strikes and capabilities which their air force 
and other forces can't provide.
    The problem they face is, frankly, much of their missile 
force from short to long range may on paper have accuracy but 
in practice it is not reliable, it does not deliver accuracy in 
a form where a conventional warhead can be lethal except as an 
area strike weapon and a terror weapon.
    Israelis have warned us this is changing in the short-range 
dimension. It is technically far harder to produce real-world 
conventional precision strike capability than often people seem 
to understand technically and twice we had to deploy systems 
knowingly that had nuclear warheads with conventional 
capabilities we claimed that did not exist.
    So that leads, I think, to my tangible suggestions to the 
committee. First, do not take any of the reporting you hear on 
a technical basis for granted.
    Quite frankly, if you don't, and General Flynn hinted at 
this, bring together intelligence experts versus policy 
spokesmen with people who actually have Q clearances and know 
about weapons design and actually work on missile design you 
can get advice and technical data which is largely a matter of 
speculation.
    So one of the key issues is how far has Iran moved toward a 
nuclear and precision strike option, and we have not seen a 
clear statement of this.
    Second, how well can you really verify missile and nuclear 
weapons progress in the future? I see two great dangers here. 
One, speculation on missiles based on the technical data of the 
guidance platform--this has never been a measure of real-world 
capability.
    You either know what the actual test data and derived aim 
point is or you don't. The guidance platform accuracy does not 
tell you real-world performance. Second, there is a very wide 
range of nuclear weapons development activities which are 
extremely easy to conceal. Pakistan did that, and you ought to 
look at that model and not simply look--and I think witnesses 
have suggested this--at the fuel cycle.
    What do we really know about the statements they have had 
access to nuclear weapons design data? And here, having worked 
on this for DARPA, let me say that there are many people who 
talk about the ease of nuclear weapons design who are doing it 
on the basis of no practical experience whatsoever.
    You either have a Q clearance or you don't. There is only 
one kind of expert in this business and that is somebody who 
has actually built a nuclear weapon, and even there the 
agreements are not common.
    Second, if you don't have a limit to ballistic and cruise 
missile capabilities, and be careful here about cruise 
missiles, because they announced in March of this year a 
missile called the Soumar--a cruise missile supposedly 
precision strike--with a range of 2,000 kilometers.
    And just to put this in perspective, they have also 
launched scud missiles from ships. So ICBMs is only part of 
this issue. In terms of any of this, can you really put a 
nuclear warhead on a missile without a fissile test?
    How much simulation can you actually carry out? How many 
missile tests do you need to get a derived aim point? And here 
again, if I were in the committee and somebody briefed me on 
guidance platform accuracy I would become very impatient.
    There is a need for real-world examination of what the 
issues are. If there are nuclear agreements, and this has been 
raised by the committee, what kind of technology transfers will 
be opened up and what kind of technology transfers matter? And 
these are not always obvious, since many of them are dual use.
    I think the mention has been made of North Korea. Let me 
note without getting into the details that there have been 
other experts who have commented that North Korea is actually 
beginning to learn solid fuel technology in part from Iran.
    And these are areas where you need to look at the full rate 
of technology transfer as well as illegal purchases by Iran.
    Ms. Ros-Lehtinen. Thank you, Dr. Cordesman.
    I hate to be impatient myself but if you could wrap it up.
    Mr. Cordesman. Right. Let me just finish with two points.
    First, what are we--what are our response options if things 
go wrong? That is a kind of obvious question to answer if you 
are going to have an arms control agreement.
    And then finally, don't focus too much on Iran. If you have 
this in parallel with North Korea, with China, which has 
recently been stated to be MIRVing and creating a submarine 
launch capability, intentions in Russia and you are trying to 
think out of the box, what is the nuclear future threat we 
really have to deter and deal with? And let me just say it 
isn't Russia anymore.
    [The prepared statement of Mr. Cordesman follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, Dr. Cordesman, and we 
will start the question and answer part of it.
    Listening to this expert testimony brings to light the 
concerns that many of us have with the nuclear negotiations 
because of what is not in the deal--the failure to incorporate 
Iran's ballistic missile program as part of the nuclear 
negotiations. We now face the nonproliferation concerns in the 
region as a result of this nuclear deal and as a result of 
ignoring the ballistic missile threat and the lifting of all of 
the sanctions at the U.N., which will impact Iran's other 
illicit activities and will bolster the regime's pockets and 
will continue to attack U.S. interests as a result.
    So with that in mind, my one question is can we fully 
understand the scope of Iran's ballistic missile and nuclear 
program without addressing the outstanding possible military 
dimension questions and will we ever know fully the extent of 
the PMD aspect of it?
    General Flynn.
    General Flynn. And I will just--I will be very brief.
    So the latter part of your question, I don't think we can 
ever fully understand. We will never have perfect, you know, 
what I call bulletproof intelligence on the capability that you 
just described.
    I do believe that as they move forward with this capability 
they will not risk failure without testing themselves through 
either, you know, actual physical testing of the capability 
itself by firing it in the region and also simulation 
components of testing.
    So I think we would see some of that, particularly if they 
decided to match an ICBM with a nuclear capability.
    So we would see some of that because they just would not 
risk failure of the system by just, you know, inadvertently 
launching something like that. So we would see some but we 
would never know the full extent of it.
    Ms. Ros-Lehtinen. Thank you, sir.
    Ambassador.
    Mr. Joseph. Thank you. I think the IAEA has done a--served 
an invaluable purpose for providing information and insights on 
the Iranian program.
    In November 2011, they identified in their quarterly report 
12 of these activities that are potentially related to a 
military dimension and in fact some of those activities 
including the design on a warhead for a missile are only 
related to weaponization. Since then, as you point out, the 
IAEA has been stonewalled by the Iranians.
    Iran has made repeated promises that they would come clean. 
Apparently, what is being negotiated now--I don't know what the 
final text will be, of course--but apparently we are going to 
accept yet another promise that they will come clean on these 
issues.
    My sense is in order to understand the 12-month extension 
of or expansion for breakout you need to understand where that 
baseline knowledge is and a critical component of that is how 
far Iran has come along on weaponization.
    We are just going to get one more promise and my 
expectation will be that the Iranians will stonewall, and let 
me say this is not just an IAEA implementation problem. This is 
a problem that directly relates to U.S. security.
    Ms. Ros-Lehtinen. Thank you, sir.
    Dr. Cooper.
    Mr. Cooper. Thank you. Obviously, I will defer to General 
Flynn and Ambassador Joseph in their comments with which I very 
much agree.
    I would make one other observation. I have approached this 
having been, as it were, in the trenches of this business for a 
couple of decades and one thing I have experienced is that when 
a country has had nuclear weapons ambitions and makes a 
strategic decision to change course and to give them up.
    It is, in my experience, surprisingly easy for them to 
demonstrate that convincingly. That is not what this looks 
like. Thank you.
    Ms. Ros-Lehtinen. Thank you, sir.
    Dr. Cordesman.
    Mr. Cordesman. First question--who is we? Because if we 
can't bring the P5+1 and the EU and other countries along with 
us with convincing arguments about violation, if verification 
is not transparent, having an internal U.S. understanding will 
not be enough.
    Second, the IAEA only can report to the extent that we and 
other countries report to them and they can gain the data 
through inspection. Inspection is not an all-source approach to 
verification.
    The limits are extremely sharp. So one key question is 
exactly what will the U.S. effort be and the allied effort be 
to actually support the answer to your question.
    Finally, no, of course, we can't fully understand it but we 
also need to be very careful about two things. First, their 
program is very marginal and very volatile yet may not be 
predictable to them. In fact, it almost certainly won't be 
predictable to them.
    And finally, technicians and technocrats lie to autocratic 
leaders and one of the great questions is going to be what 
level of risk and uncertainty is going to take place within 
Iran and how well will they understand because that cruise 
missile I talked about probably was announced by the Iranian 
Revolutionary Guard without the authorization of the government 
and in some ways to block the agreement and that is not a sign 
of predictable unity.
    Ms. Ros-Lehtinen. Thank you very much, and as I recognize 
the ranking member for his question and answer period, I would 
like to ask Mr. Weber of Texas if he could take over the chair, 
as I have a speaking engagement in another building.
    Thank you so much.
    Mr. Deutch. Thanks, Madam Chairman.
    I wanted to follow up with the article that I referred to 
in my opening statement. The talks--all of these talks about 
the nuclear issue are premised upon the understanding that we 
have had that the sanctions with respect to support for terror, 
human rights violations and ballistic missiles--ballistic 
missile production will all remain in place.
    Suddenly, the news this morning suggests that some have a 
different interpretation of why those ballistic missile 
sanctions were put in place to begin with.
    And I would like to give the--our witnesses an opportunity 
to comment on this and why--and how you respond to the 
suggestion that the only reason that those sanctions were put 
in place was to get Iran to the negotiating table to talk about 
the nuclear issue, not to continue to block them from 
developing ballistic missiles.
    Dr. Cordesman.
    Mr. Cordesman. To be honest, I think one of the great 
problems is that sanctions don't block technology transfer at 
many levels anyway. What they do is put leverage on Iran.
    But when it comes to many of the missile improvements these 
have taken place regardless of the limits and the existence of 
sanctions.
    They may have slowed down Iran and raised the cost. But as 
you pointed out when you have countries like North Korea, when 
you have an industrial espionage network you have to be very 
careful about how much of the actual technology transfer can be 
blocked.
    On a nuclear side, you could get a list of technologies 
that have been slowed down and presented problems. They 
responded in many ways by creating their own autonomous 
production capability.
    And so I think that, quite frankly, you hit on a key risk 
but the risk is not somehow that these sanctions are suddenly 
going to be raised in ways which increase the flow.
    They are going to increase, as other witnesses have said, 
the amount of money, the willingness of countries to basically 
ignore the consequence of their transfers and they remove the 
leverage from Iran to at least show some degree of restraint.
    Mr. Deutch. General Flynn, your thoughts on this.
    General Flynn. Yes. Number one, I think the--I mean, once 
the sanctions are lifted and as we have seen I think since 
really 2013 the genie is out of the bottle and, you know, this 
phrase ``snap back sanctions'' that is wishful thinking.
    The big challenge that I think what has happened is that 
when this discussion was going I don't believe that the 
administration thought that this region was going to spiral in 
the direction that it has spiralled as fast as it has and I 
think that that is a bit--you know, I wouldn't say it has 
caught us by surprise because it was known.
    So that is just another component of this thing. I think 
the fourth part about--the third part about this is that the 
region should have been part of this discussion.
    So I got the P5+1 but there should have been along that 
path at least updates to the rest of the region because the 
fourth thing, and we are already seeing it happen, and the 
specific numbers of Saudi, Jordan, the UAE, Kuwait and Egypt 
already talking to the Russians and the Chinese about 
developing nuclear capabilities in their countries is a very 
real issue and there are specific numbers to exactly what they 
are going to do over the next decade or so.
    So we are going to see proliferation in the region because 
we just--we took this--we looked at this too narrowly from the 
beginning.
    Mr. Deutch. Can I go back to your last point about what 
else is happening in the region? And I just ask all of the 
witnesses to your knowledge have any Iranian-origin ballistic 
missiles or heavy rockets or launchers been captured at this 
point by ISIS or other extremist Sunni factions either in Syria 
or in Iraq? Anyone have any response to that--thoughts on that?
    Mr. Cordesman. I think you need to be careful because 
Syrian systems, which are virtually identical to Iranian 
systems, many of them.
    But if those transfers have occurred I can only know of one 
site where that physically the Islamic State moved in and I do 
not know whether they actually found anything.
    Mr. Deutch. And just, finally, a quick question about the 
state of rocket manufacturing technology in Gaza and the extent 
to which the Iranians have been able to transfer the expertise 
necessary to have a full-fledged rocket development program in 
Gaza. Any thoughts? No?
    General Flynn. I will just talk, you know, from open source 
reporting that, you know, in total violation of sanctions and 
in its typical behavior Iran has continued to provide those 
capabilities, as one or more of the members highlighted in 
their statements. So and that continues to be a problem.
    Mr. Deutch. Thank you.
    I yield back, Mr. Chairman.
    Mr. Weber. I thank the gentleman.
    I am going to yield 5 minutes to the gentleman from 
Florida.
    Mr. Yoho. Appreciate it, Mr. Chairman.
    Gentlemen, I appreciate you here--being here and testifying 
on this important topic. It is kind of like the cat and mouse 
game that never goes away.
    General Flynn, you testified that there is no end in sight, 
no clear U.S. policy, no sufficient U.S. whole of government 
approach to address the crisis in Iraq, and just a few days ago 
the President said that also, that there was no clear--whose 
role is that to set that policy?
    Is that the military coming to us or the State Department 
or is that--should the President set a role and say this is 
what we are going to do in those negotiations?
    General Flynn. Yes. I mean, that has got to start from the 
President. The President has to be very clear about what it is 
that we want to do. He has then--he then has to put the right 
structure, framework, people in place to accomplish that and 
I----
    Mr. Yoho. Okay, and I agree with that.
    General Flynn. Yes. I mean, I just--I was--I was stunned by 
his comment 2 days ago or 3 days ago--stunned.
    Mr. Yoho. You know, and the people that come to me they say 
it is either out of ignorance, incompetence or by the design, 
and I don't want to get into that. But it is--it is not 
acceptable.
    You know, we are going into a negotiation trying to prevent 
that which we can't instead of preparing for that which will 
be. They are going to get a nuclear weapon and we need to look 
at that day, unfortunately.
    Let me ask you, just shifting to Iran and what is going on 
in Iraq, I read a report today that Iran--the Iraqi security 
forces used Iranian military equipment to advance in Mosul, I 
believe it was.
    In your opinion, is it possible with Iran having equipment 
in there and they are fighting not to be coordinating with U.S. 
troops or U.S. commanders? Is it possible to have two wars 
being conducted by two different countries fighting a common 
enemy?
    General Flynn. I mean--wow. We have allowed this thing to 
get so out of kilt that I--it is hard for the forces that we 
have. I know for our military commanders it is hard for them to 
figure out sort of which end is up and which direction do you 
want me to take there, Mr. President.
    Mr. Yoho. I agree. It is, like, you don't know what the 
left hand and the right hand are doing.
    General Flynn. Yes. So Iran is, clearly, doing the things 
that you just said and they have Shi'a proxies. They have Shi'a 
militia. They have Iraqi military forces that are aligned 
underneath Shi'a leaders.
    I mean, this is a real big problem and the likelihood of 
Iran dominating Iraq and the breakup of Iraq actually, I think, 
is very real. I just--I believe that we are not going to see 
that region go back to the way it was. I just don't believe 
that it is going to happen.
    Mr. Yoho. Ambassador Joseph, in your opinion do you see a 
coalition of the Sunnis, Shia's and the Kurds forming a united 
Iraq that will stay together or do you see more of it breaking 
up, as General Flynn said?
    Mr. Joseph. I agree with the general. I think you are 
likely to see more of a, you know, disillusion--more of a 
breakdown and less unity of--than some have anticipated.
    I just think that the nature of the relationship between 
the Shi'a and the Sunni is such that there is--there is no 
prospect, at least that I can see, for a peaceful resolution.
    Mr. Yoho. And I would like to see our foreign policy 
gravitate toward that and let us not forget the lonely Kurds 
who are out there and I think they all kind of want to have 
their own country is what I see and I see a resistance to that.
    Dr. Joseph, you testified that the negative consequences of 
failure to include missile restrictions to deal with Iran are 
magnified by other flaws and negotiating powers toward Iran 
including enrichment breakout and we just heard a report the 
other day that, if I understood correctly, there is 20 percent 
more production of fissible material than there was before 
these negotiations started. Do you see this as a positive 
outcome in the Iran nuclear negotiation?
    Mr. Joseph. Well, I think there are a number of fatal flaws 
in our position and in fact in what has already been agreed. I 
think the principal flaw is that we did permit Iran enrichment 
in the first place.
    Once you allow Iran to maintain and in fact under this 
agreement expand a large-scale infrastructure for enrichment, 
the agreement in and of itself explicitly recognizes at that 
point Iran as a nuclear weapons threshold state.
    Mr. Yoho. Right.
    Mr. Joseph. We have made concessions on verification. I do 
not believe that we are going to get what we need, which is 
unfettered anywhere anytime access to all facilities that are 
relevant, to all people that are relevant and to all records 
that are relevant.
    We have made concessions in other areas but I think those 
are the two principal ones.
    Mr. Yoho. I agree.
    Mr. Chairman, I am out of time but not questions.
    Mr. Weber. I thank the gentleman for yielding back.
    Mr. Connolly. Oh, I am sorry.
    Mr. Connolly. I think Mr. Higgins is----
    Mr. Weber. There we go, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Ambassador Joseph, you had made reference to the breakout 
capability. We are told now that if Iran wanted to they could 
pursue a nuclear weapon in a period of between 3 and 4 months.
    The framework for the agreement extends that time to at 
least a year and some say conservatively so. You reject that 
and why?
    Mr. Joseph. Yes, I do. I think that this notion of 
extending breakout to 12 months is another flaw. The reason is 
that we won't know when that 12-month clock begins in all 
likelihood unless Iran decides to break out at a monitored 
facility.
    The Iranians have proven themselves in this context to be 
masters of denial and deception. My sense is we won't know when 
that clock begins.
    Even if we knew when the clock began, does anyone really 
think that the international community will come together and 
have a determined response within that 12-month time frame? It 
has taken us over a decade to get where we are.
    And even if one assumes that we will know when the clock 
starts and the international community will come together, we 
don't have enough knowledge to understand where Iran is 
starting from and that has to do with its stonewalling on those 
activities that are possibly related to military--to the 
military dimension.
    It has to do with what Iran will have in terms of access to 
the low-enriched fissile material that is beyond the 300 
kilograms that Iran would be allowed to have--will they have 
ready access to that?
    Some administration spokes people say it is going to go out 
of country. That would be great. The Iranians say it won't----
    Mr. Higgins. But now you are getting--but you are getting 
to verification now. I just want to stay on this issue of 
capability relative to the reduction of infrastructure and 
material, and we are told that the combination of the two would 
deny Iran the ability to produce weapons-grade materiel because 
of the reduction of the materiel and the infrastructure.
    Mr. Joseph. Well, that is what we are told.
    Mr. Higgins. Right. Okay.
    Mr. Joseph. That is what we are told. But let me say that 
if Iran to date does not have a covert nuclear program it would 
be the first time in 20 years.
    We keep finding elements of a covert program including 
enrichment facilities, as we did with Fordow.
    Mr. Higgins. Okay. So let me ask you this. You know, let us 
say that there is not the ability to verify. You know, we have 
been told by the administration that this plan is based not on 
trust but on verification and what you are saying is the 
history of covert activity by the Iranian regime makes that 
verification impossible?
    Mr. Joseph. Well, I think that, given the absence of 
unfettered access to facilities, people and records----
    Mr. Higgins. Is that issue fully resolved yet in the--in 
the agreement?
    Mr. Joseph. The Supreme Leader has said it is. I mean, he 
is, you know, just one voice--probably a very important voice 
in this. He has said that military facilities are off limits. 
He said that access to nuclear scientists are off limits. This 
is just a pattern.
    It is a pattern of deception. It is a pattern of covert 
activities in this area that Iran has demonstrated for more 
than 20 years.
    Mr. Higgins. So what would you suggest the alternative is?
    Mr. Joseph. Well, I would suggest that instead of relieving 
sanctions we impose even more sanctions. It was sanctions that 
brought the Iranians to the table.
    Mr. Higgins. Do we now keep the sanctions regime alive----
    Mr. Joseph. Well, I think it is imperative----
    Mr. Higgins [continuing]. If Russia and China fall off?
    Mr. Joseph. I think it is imperative to demonstrate U.S. 
leadership in order to keep those sanctions on Iran, to keep 
the pressure on Iran and to insist on those elements that would 
make it an acceptable agreement including effective 
verification, and I think with sanctions and with the 
restoration----
    Mr. Higgins. An effective----
    Mr. Joseph [continuing]. Of a credible option for the use 
of force----
    Mr. Higgins. And I just want to be clear--an effective 
verification would be unfettered access to all of Iran's 
nuclear facilities including those that are controlled by the 
military?
    Mr. Joseph. That is an essential element of effective 
verification.
    Mr. Higgins. Okay. I yield back. Thank you.
    Mr. Weber. I thank the gentleman for yielding back and now 
we will go to Mr. Connolly.
    Mr. Connolly. I thank the chair and thank the panelists.
    Ambassador Joseph, you listed a series of foreign policy 
debacles. Maybe you overlooked weapons of mass destruction in 
Iraq and the invasion of Iraq. Would that not be a debacle?
    Mr. Joseph. I think it was, certainly, an intelligence 
failure of the first order.
    Mr. Connolly. And would you not agree that, frankly, the 
occupation of Iraq was equally a debacle in that it lead to the 
kind of chaos we have been managing for more than a decade?
    Mr. Joseph. Well, I think it--I think, certainly, we have 
had a decade of chaos in Iraq, absolutely.
    Mr. Connolly. Yes. But, I mean, it flows from some 
decisions we made. We didn't put enough troops in initially 
under the direction of the then secretary of defense. We stood 
by while looting and other crimes occurred because we didn't 
have enough troops to police and it wasn't our mission.
    We de-Ba'athisized the government, making a lot of 
government bureaucrats unemployed. We disbanded the military, 
creating a lot of disgruntled human beings who were armed that 
led directly to insurgencies. Is that not correct?
    Mr. Joseph. I think all of those things occurred and I 
would say that compared to what I believe we are now headed 
into in terms of a bad agreement with Iran those steps, as 
misfortunate as they have been, would rank much lower on the 
scale of foreign policy disasters and a bad nuclear agreement.
    Mr. Connolly. Well, no, you are comparing it now to the 
agreement. But you listed three debacles, all of which happened 
to be under a certain political party's administration and I 
would just commend you that there are other debacles, if we are 
going to get in that game, and the fact that you overlooked or 
didn't mention Iraq is quite striking, since most Americans I 
think would agree in retrospect it was a debacle.
    Mr. Joseph. Certainly, there have been debacles under both 
parties----
    Mr. Connolly. Okay.
    Mr. Joseph [continuing]. Both administrations and it wasn't 
playing a game.
    Mr. Connolly. Okay.
    Mr. Joseph. It was simply the sum.
    Mr. Connolly. Okay. It just struck me.
    You said to my colleague that the answer, and I want to 
make sure I get this correct, what you would recommend is pull 
the plug on this agreement or vote it down and actually impose 
more sanctions. Is that correct?
    Mr. Joseph. Yes.
    Mr. Connolly. Now, let me just, you know, play devil's 
advocate with you for a minute, if you don't mind. So you, 
obviously, believe that would be efficacious. That would lead 
to desirable things and block or preempt the Iranians from 
pursuing undesirable things.
    What if the opposite is true? What is the probability, do 
you think, that by pulling the plug and imposing more sanctions 
the Iranians conclude it is totally without merit to try to 
negotiate with the West, our P5+1 allies and partners, frankly, 
get the solution with that approach and will not cooperate with 
the imposition of more sanctions?
    Is that not a possible scenario and undesirable outcome, 
though it is a probable outcome?
    Mr. Joseph. It is a possible scenario, absolutely.
    Mr. Connolly. And--but don't we need to weigh that before 
we take such action? I mean, don't we have to try to weigh what 
is the greater probability, an agreement that at least retards, 
rolls back some aspects of a nuclear development program 
versus, you know, one unintended consequence of actually an 
acceleration of that because now the Iranians have concluded 
they have nothing more to lose and our allies are disillusioned 
with our approach?
    Mr. Joseph. President Obama has said repeatedly that a bad 
agreement is worse than no agreement, and my sense is we are 
headed directly toward a bad agreement. So one has to weigh 
that as well.
    Mr. Connolly. Yes. But one also has to weigh the 
consequences of one's actions and I was simply trying to engage 
you in okay, while we are weighing--I mean, if you were the NSC 
advisor tomorrow, you know, surely you would have to do an 
analysis of the pros and cons of each approach and the approach 
you have advocated for certainly is not without some risks--
some very great risks potentially.
    Mr. Joseph. Well, there are risks all around.
    Mr. Connolly. Yes, I know.
    Mr. Joseph. I mean, there are risks in going forward with 
the bad agreement. I come at this, again, from a 
nonproliferation perspective. I think this is going to light 
the torch for proliferation in the region.
    I think that not only will you have more states in the 
region going nuclear and acquiring more and more ballistic 
missiles but you are likely to have a real negative impact on 
the NPT regime and that is something we all need to care about.
    Mr. Connolly. I take your point and it is a fair one. But I 
would simply suggest to you in the interest of intellectual 
honesty one needs to examine whether your approach with the 
best of intentions actually leads to precisely the end result 
you want to avoid--massive proliferation.
    My time is up. Thank you, Mr. Chairman.
    Mr. Weber. I thank the gentleman. I am going to ask a 
couple of questions here.
    General Flynn, I would like to hear you weigh in on the 
gentleman from Virginia's questions about the prior process of 
10 years that being a debacle and is this one worse. What say 
you?
    General Flynn. Yes. I mean, I would--for Mr. Connolly, I 
would just offer that your counsel is actually very appropriate 
about previous decisions that we have made over the last--
shoot, the last 30-plus years of just huge strategic errors.
    I mean, and believe me, the majority of my career has been 
in that part of the world. So I don't disagree with anything 
that you said.
    This notion of proliferation it is already happening. What 
I want this country to be able to do is I want this country to 
be in the driver's seat, okay. So I am assuming that the deal 
is going to be--going to be done, bad deal, whatever. Whatever 
it is, and I am assuming that.
    So, now, what I want is I want the United States of America 
to be in the driver's seat. I don't want Russia to be talking 
to Jordan about building nuclear plants. I don't want the 
Chinese or Pakistan to be talking to the Saudis about building 
potentially 10 to 15 plants.
    I don't want the Russians to go over to Egypt and talk to 
them about building nuclear plants. I want--I want us to be in 
that driver's seat.
    You know, Iran--you know, I could go on and on all day 
about Iran and their behavior, you know, and their lies--flat 
out lies--and then their spewing of constant hatred no matter 
whenever they talk.
    I mean, it doesn't matter whether it is a general or the 
ayatollah himself. So what you are--what you are offering and 
what you have said is exactly right. It is counsel to say okay, 
let us assume some things are going to happen.
    Let us assume this is going to occur. Now what do we do 
about it and let us project forward. Let us look forward, 
because I--you know, rhyme and verse on the decisions that go 
into Iraq done deal and where it has potentially led us today. 
I got it.
    But now we have to figure out what is happening and I am 
telling you, because I read the regional news all the time, 
every day, and I just came from a trip--fairly extensive trip 
to the Middle East and this was one of the big issues that came 
up.
    And they are already talking--I mean, you had the crown 
prince of Saudi already in Korea, already talking to the French 
about nuclear development.
    I mean, Jordan, one of our--I mean, probably the closest--
they are our closest friend, right, or certainly they believe 
that we are their closest friend--they are talking to the 
Russians about this business.
    So--about nuclear development--so we have to get very, very 
smart and we have to do it very quickly because it is going to 
happen, be for it because it is nuclear proliferation in this 
region and it will happen.
    What we want to do is we want to keep it at the nuclear 
energy level and not nuclear weaponization level and that, to 
me, is something that I believe this country--our country can 
actually lead on and make happen.
    Mr. Weber. Thank you, General.
    Ambassador Joseph, you said earlier in your exchange with 
Mr. Higgins that we won't know for sure on a breakout when the 
clock begins, and is it a three--I think he asked is it a 3 or 
4 months breakout, is it a year breakout.
    Is that really your opinion that the clock hasn't begun on 
that breakout?
    Mr. Joseph. Well, I think my point is that we don't know. 
Maybe it already has. But I am just looking at experiences in 
the proliferation/nonproliferation area. We were caught off 
guard by the timing of the Soviet first test.
    We were caught off guard by the Chinese first test--by the 
timing. We were caught off guard, as the chairwoman mentioned, 
earlier today about the uranium enrichment program in North 
Korea, and that is with advanced collection capabilities.
    We just won't know and that is the problem here. We just 
don't know.
    Mr. Weber. Well, forgive me, but I think that that clock is 
ticking. We really don't know, I mean, by all the testimony 
here today of all the stonewalling they have done.
    So the gentleman from Florida alluded--mentioned the 20 
percent increase in fissile material. You have read those 
reports. Are they accurate, in your opinion?
    Mr. Joseph. I think they are accurate. They are from the 
IAEA, who monitors this and keeps very good track of it. 
Absolutely.
    Mr. Weber. All right. So have you asked yourself this 
question--if they have increased the fissile material by 20 
percent their technology and perhaps even their infrastructure 
has probably been increasing and improving at the same time?
    Mr. Joseph. There is just no doubt it has been increasing. 
I mean, under this agreement there are no restrictions as far 
as I know on research and development of advanced centrifuges 
and the next generation is, I am told, four times more 
efficient than the previous one.
    So, you know, again, there are all of these loopholes in 
the arrangement as they are being worked out.
    Mr. Weber. And General Flynn, you said they will--the 
Iranians will not risk failure without testing, in your earlier 
comments. So what you are saying is that at some point we are 
going to see them test an ICBM. Is that correct?
    General Flynn. Yes. I absolutely believe that they will do 
that.
    Mr. Weber. Okay.
    General Flynn. They will--they will test. Whether they 
actually move to nuclearization of that capability they--we 
will eventually see them doing some of that and they have 
already taken some steps to do that.
    Mr. Weber. So don't they have--wouldn't you imagine that 
they have that same calculus and when they do that testing they 
better be very, very close to their breakout. Would you agree 
with that?
    General Flynn. Yes, I would. I mean, all you have to do is 
look at the North Korea example.
    Mr. Weber. Okay. Ambassador Joseph, would you agree with 
that as well?
    Mr. Joseph. Yes, fully agree.
    Mr. Weber. Dr. Cooper, would you agree with that?
    Mr. Cooper. Yes.
    Mr. Weber. Dr. Cordesman?
    Mr. Cordesman. Quite frankly, no.
    Mr. Weber. Okay. Fair enough.
    Mr. Cordesman. I mean, technically warhead design is very 
different from how you are defining breakout and you have to 
make a very clear distinction between having a nuclear device 
or event.
    Mr. Weber. Well, but you also said--forgive me for 
interrupting--that what did you say, technocrats lie to--
technicians and technocrats lie to autocrats. And so if they 
have misled us up to this point, and I get that there is a 
technological difference in that design.
    But if they are going to show that they have ICBM 
capability I have to believe that they are going to be just 
like your three colleagues there--that they are so close they 
would not risk letting us know that they have that capability 
unless they were on the threshold, and we are just going to 
have--we are just going to have to agree to disagree about 
that.
    I am out of time. I appreciate your response. And I am 
going to go to the gentleman, Mr. Mark Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. Thank you to each of 
you for your testimony.
    So the Iranians have said that their nuclear advancement is 
for peaceful purposes. Is that correct? So I see nodding. Is 
there any peaceful reason to have an ICBM? Dr. Cooper.
    Mr. Cooper. Thank you very much.
    This raises a very interesting question. The peaceful 
version of an ICBM is a space-launch vehicle. That is the dual 
use aspect of this.
    And the Iranians have been extremely cagey recently. They 
went from announcing a very ambitious space-launch program 
which was widely interpreted as a cover for an ICBM program, as 
has been mentioned.
    There have been a number of statements recently that 
suggested they don't want an ICBM and even that they are 
modifying or even shutting down their space-launch program.
    I think the key here, given the intersection of space-
launch technology and missile technology, this is really where 
we have a missed opportunity from this negotiating process.
    Even if the Iranians were not willing to consider 
restrictions on any of their programs, it is a pity that we did 
not even get transparency so that we could understand the 
nature of their space-launch program which is a very opaque 
program.
    Mr. Meadows. So, Dr. Cooper, what you are saying is is that 
if indeed it was for peaceful purposes we could come in with 
regards of raising this issue of ICBMs and determine very 
quickly whether it is a space-launch aspect that they are 
really pursuing or perhaps preparing for a nuclear capability. 
And I will come to you--Dr. Cooper, do you want to speak to 
that and then Dr. Cordesman, I will come to you.
    Mr. Cooper. There are junctures where a space-launch 
program and a military ICBM program separate and are 
distinguishable. But they are very late in the day and most----
    Mr. Meadows. By very late--quantify that for a layman. On a 
scale of one to 10 with that being able to be a deliverable, 10 
being the highest in terms of deliverable, is that at stage 
seven or eight or is that at five?
    Mr. Cooper. I am not technically proficient enough to try 
to quantify it at that level. But it is relatively late in the 
process and a lot of the heavy lifting technologically can 
occur within the same sort of program that you would have for 
an SLV program.
    It is precisely for this reason that the United States and 
its partners within the Missile Technology Control Regime do 
not distinguish between space-launch vehicles and missile 
programs.
    They merely talk about the capabilities of any unmanned 
system capable of delivering a 500-kilogram payload to 300 
kilometers, which is a very low threshold.
    Mr. Meadows. Dr. Cordesman, welcome back. You were on a 
panel just a couple of days ago so welcome back. Do you want to 
respond to that?
    Mr. Cordesman. It is more a supplement to Dr. Cooper's 
remarks than anything else. They have been very cagey about 
what they have been doing but they have also built a very large 
new test facility and they have created a much larger launch 
pad capability.
    They did have an accident, which was very serious and to 
some extent delayed part of their program. But I think you will 
find that when it comes down to what they can do they are 
making significant advances in the space program that have a 
direct correlation to the kind of booster tests you would need 
for an ICBM.
    And I think those physical indicators are very much 
something that you need to pay attention to.
    Mr. Meadows. So it is your professional opinion that they 
could be developing truly the deliverables for a nuclear 
warhead on a parallel track while working on their space 
program. Is that correct--if I am hearing you correctly?
    Mr. Cordesman. Certainly, because we know that countries 
like Pakistan, with a much lower technology base, did it 15 to 
20 years ago.
    Mr. Meadows. Right.
    Mr. Cordesman. And the Parchin facility is something they 
would not have to rebuild. They could probably simulate or 
create that facility in far less detectable ways. Once they do 
that, here I would have to question one aspect of what 
Ambassador Solomon said.
    I am not sure that any amount of verification would give 
you the capability unless you had a major intelligence leak.
    Mr. Meadows. All right. So General Flynn, let me come to 
you with my final question as I am running out of time.
    You are an expert in the region. You have spent much of 
your life there. I have an ex-CIA officer that gives me intel.
    He is retired now. He was in the region both in Pakistan 
and Israel, and so his assertions are that when we talk about 
proliferation is that there has been a real desire to acquire 
nuclear capability by some of these member states for many 
years dating back to 1999 and 2000.
    Would you concur with that and that we are about to embark 
on a nuclear arms race in the Middle East that we have not seen 
the likes of ever?
    General Flynn. We are--we are embarking--we are--we have 
embarked on a nuclear race in the Middle East. Now, arms--you 
know, from everything that Iran has said they are--they have 
every intention of having a nuclear weapon.
    They have stated it and if I have learned anything about 
some of the threats that we face is if they say it they 
typically----
    Mr. Meadows. They mean it.
    General Flynn [continuing]. Try to do it.
    Mr. Meadows. Sure.
    General Flynn. So and I agree with Dr. Cordesman. I mean, 
this is a difficult thing to do but some of the things that we 
have already seen them do over the last 5 or 6 years for their 
space program and, you know, both liquid and solid propellant 
systems that they have, I mean, they have done some pretty--
they have done some leap ahead things that make them more ready 
today than they ever were and the time to get there, as the 
chairman was highlighting, is a lot shorter than we probably 
will estimate.
    Mr. Meadows. Thank you, General Flynn.
    Mr. Chairman, thank you for your generosity on the time. I 
yield back.
    Mr. Weber. You are more than welcome, and I would like to 
just note, by the way, that the only thing we haven't heard the 
Iranians say is that they are from the government and they are 
here to help us, number one.
    And number two, do we know of any other nation that has 
announced they are going to do a space program while chanting--
while their leadership chants ``Death to Israel and American.''
    I just want to make those two comments. Good questions from 
the gentleman from North Carolina. At this time, we are going 
to go to the gentleman from Alabama, Chairman Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. And Admiral Joseph, 
good to see you here again. I want to ask--direct my questions 
to you.
    Beyond nuclear weapons, I am concerned about what other 
weapons of mass destruction Iran may have. Are you familiar 
with the latest so-called ``compliance report'' from the State 
Department that indicates the United States cannot confirm Iran 
is complying with its obligations under the biological weapons 
and chemical weapons conventions?
    Mr. Joseph. Yes, sir. I am.
    Mr. Rogers. Okay. What kind of verification--weapons 
verification do we need to know exactly what Iran would be 
deploying on its ballistic missiles, in your view?
    Mr. Joseph. Well, that is a tough question. As I mentioned, 
unfettered access anywhere anytime facilities, people, records, 
that is an essential component. But it is certainly not 
sufficient in and of itself.
    We would have to, I think, have a very intrusive approach 
to the ballistic missile development in Iran and I think it 
would have to be designed uniquely for Iran.
    I don't know that there has been much thought to that. So 
what we do is we look for testing. We use all-source 
intelligence to try to understand the various parameters of the 
various missile programs.
    But as far as I can tell, there is no effective 
verification structure currently in place unless, of course, 
Iran does something very obviously and tests in the open.
    Mr. Rogers. Ambassador, are you concerned that they do have 
biological and chemical weapons capability that they could put 
on their ballistic missiles?
    Mr. Joseph. I am concerned. I am more familiar on the 
chemical side than I am on the biological side. But I think 
that is--that is a real--a real risk that exists in the region 
which, of course, makes it imperative on us for our forces and 
for our allies to be prepared for all contingencies.
    Mr. Rogers. On that front--this will be for the Ambassador 
or General Flynn--what kind of missile defense capability does 
the U.S. need to deploy for itself and its allies to be able to 
defend against literally hundreds and hundreds of Iranian 
ballistic missiles and terrorist proxies that will--that the 
Obama-Iranian sanctions relief negotiations will enable?
    General Flynn. Yes. I mean, we have very specific 
capabilities in the surface to air missile, you know, sort of 
toolbox but also our Air Force and Naval air that is out there 
in the theater most of the time are aircraft carriers that 
bring an entire array of sort of defeat capabilities and also 
in the eastern Mediterranean is another area where we have 
continued to keep, you know, certainly, a Marine amphibious 
task group out there for a long period of time.
    So we have an array of capabilities. I believe that--in 
fact, I know because they have told me, in the Sunni Arab 
leader community one of the things that they do want out of 
this whole thing is an assurance--more of a guarantee than just 
a handshake that the United States will be there for the long 
term to basically provide that kind of an umbrella that you are 
talking about--that you are asking about.
    Mr. Joseph. Mr. Chairman, could I just add to that one 
point? And it is a point that I know you feel very strongly 
about, and that is the need to do more to protect the homeland 
against an ICBM class threat from Iran.
    Forty-four ground-based interceptors in Alaska simply won't 
do it. We cancelled the original third site. We have cancelled 
phase four of the European phased adaptive approach. We need to 
do more to protect the United States against this emerging 
threat.
    Mr. Rogers. Yes, and the bad--the really sad news is I was 
in Fort Greeley last--2 weeks ago. We didn't even have 44 
interceptors yet. We are still working toward that.
    The last question, and this could be for anybody, do you 
all believe the United States can use Iranian assets currently 
under control of the U.S. to pay for such capabilities 
legally--I don't know--or politically?
    All right. I guess we don't know. Thank you, Mr. Chairman. 
I yield back.
    Mr. Weber. I thank the gentleman, and the gentleman from 
Florida is recognized.
    Mr. Yoho. Thank you, Mr. Chairman, and again I appreciate--
that is the first time I have seen a panel stumped. So good 
job.
    Dr. Cooper, what are the agreed upon, if there is any, the 
number of centrifuge Iran needs for a peaceful nuclear program?
    Mr. Cooper. I am not aware of that.
    Mr. Yoho. Ambassador, do you know the number we agreed upon 
in our negotiations?
    Mr. Joseph. In the negotiations, what has been reported in 
the press is somewhere between 5,000 and 6,000. I believe that 
it is 5,000 at Natanz and another 1,000 centrifuges----
    Mr. Yoho. Okay. Let me ask you this. Do you need more 
centrifuges for a peaceful nuclear program versus a nuclear 
weapons program?
    Mr. Joseph. Well, of course, it all depends on the number 
of nuclear reactors for which you are trying to develop the 
fuel. The Iranians say they need 100,000 centrifuges spinning 
because they have plans for many, many more reactors.
    Mr. Yoho. The way I understand it is you need hundreds of 
tons or tons of fissible material for reactors whereas a bomb 
you need kilograms.
    Mr. Joseph. That is right.
    Mr. Yoho. So you would need more for a peaceful nuclear 
program yet we are limiting them on the very things that we 
need. So, you know, it just--it doesn't smell right.
    Let us see--what would it need to bring--what would need to 
happen in the Middle East to bring a stop to the nuclear arms 
race in the Middle East, General--Lieutenant General?
    General Flynn. Yes. It is not going to happen. I mean, the 
nuclear--the nuclear--you know, the movement to nuclear 
capabilities in the Middle East is happening as we sit here 
today. So you are--this is irreversible.
    Mr. Yoho. Ambassador Joseph, what do you feel like?
    Mr. Joseph. I have to--I have to agree with the general. 
But what I would hope, and hope is seldom a sound basis for a 
strategy, but I would hope that the United States could restore 
the credibility of its security commitments in the region. I 
think that is an essential element.
    Again, it may not be sufficient but it essential if we are 
going to make progress.
    Mr. Yoho. And it is a start and that is something we have 
to do. I mean, and I have only been here for a little over 2 
years but what I hear is the credibility of the United States, 
especially from our allies, is number one, they don't know if 
they can rely on us.
    They don't know if they can depend on us and, of course, we 
know what our enemies say. They don't really--they don't fear 
us or respect us. And I really don't care if they respect us 
but they should--I don't want them to fear us but they need to 
know we mean what we say.
    We talked a lot about verification and the IAEA and we know 
what a cat and mouse game Iran has played for the last 30 
years. It doesn't work. There is new technology out there.
    Are you guys familiar with the antineutrino technology and 
the water ways, the picking up--they can triangulate where 
nuclear reactors are or weapons? They can pick that up. That is 
doable technology, correct? No comments?
    General Flynn. There is just--I mean, those are kinds of--
that sort of stuff you are going to have to address with other 
committees.
    Mr. Yoho. All right. I will. But the technology is out 
there. I have done a lot of research into it and somebody said 
well, it is not doable yet. And I understand that, because at 
one point the nuclear bombs weren't doable but it was there in 
theory.
    This nation rallied around that to make that happen. I say 
we need to rally around the research and development of the 
antineutrino detector plates to find out where these are so we 
don't have to depend on Iran coming clean, and it is anywhere, 
everywhere detection at all times.
    And I think this is something for the United States. 
Ambassador Joseph, you said we need to prepare--we need to do a 
better job on national security and I think this is paramount 
and we will pass it on to the different committees.
    With that, I yield back and thank you for your time.
    Mr. Weber. I thank the gentleman. Okay. Well, it looks like 
we have exhausted all of our questions. We appreciate you all's 
testimony and our hearing is adjourned.
    [Whereupon, at 11:50 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              

 
                     Material Submitted for the Record
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
